No. 19-1135

 

IN THE

Supreme Court of the United States

DIGNITY HEALTH D/B/A MERCY SAN JUAN
MEDICAL CENTER,

Petitioners,
v.
EVAN MINTON,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL,
FIRST APPELLATE DISTRICT

BRIEF OF THE CATHOLIC HEALTH
ASSOCIATION OF THE UNITED STATES AND THE
ALLIANCE FOR CATHOLIC HEALTH CARE AS
AMICI CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,475 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 16, 2020.

ZA

 

Colin Casey Hogdn
Wilson-Epes Printing Co., Inc.
